       Report No. D-2009-074                              June 12, 2009




        Review of Defense Contract Management Agency
             Support of the C-130J Aircraft Program



                                       Special Warning:

This document contains information provided as a nonaudit service to the Defense Contract
Management Agency. This document contains data and information obtained from the Air Force
C-130J system program office and the Defense Contract Management Agency at Marietta, Georgia.
Only limited audit procedures were performed on the data and information obtained. Therefore,
any work performed was not done in accordance with Generally Accepted Government Auditing
Standards. However, before we performed the nonaudit service, we determined that it would not
impair our independence to perform audits, evaluations, attestation engagements, or any other
future or ongoing reviews of the subject.
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142) by fax (703) 604-8932 or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
ETC                           Estimate-to-Complete
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
IG                            Inspector General
MOA                           Memorandum of Agreement
MYP                           Multi-Year Procurement
OIG                           Office of Inspector General
PBD                           Program Budget Decision
SPO                           System Program Office
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DR IVE
                                 ARLINGTON , VIRG INIA 22202-4704




                                                                                      June 12,2 009


MEMORANDUM FOR ASS ISTANT SECRETARY OF THE AIR FO RCE (FINANCIA L
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Review of Defense Contract Management Agency Support of the C- 130J Aircraft
         Program (Report No. D-2009-074)


We are providing this report fo r yo ur informat ion and use. We perfo rmed the rev iew in response
to an allegation of in appropriate Air Force influence over the Defense Contract Management
Agency's C- 130J contract administration function. We do not requ ire any comments.

We appreciate the courtesies extended to the staff. Pl ease direct questi ons to me at (703)
604-907 1 (D SN 664-907 1).




                                             ~' ~ ~Il'~
                                              Deputy Assistant Inspector General
                                              Acquisition and Contract Management
Report No. D-2009-074 (Project No.D2009-D000AB-0005.0001)                     June 12, 2009

               Results in Brief: Review of Defense
               Contract Management Agency Support of
               the C-130J Aircraft Program
                                                    to provide or did provide any written
C-130J Program                                      analysis of the termination costs.
The C-130 aircraft performs intra-theater
airlift missions to bring troops and                DCMA played a more substantial role in the
equipment into hostile areas. The C-130J            subsequent conversion of the C-130J
aircraft is a medium-range, tactical aircraft       contract from a commercial acquisition
and is the newest upgrade to the C-130 fleet.       procurement to a negotiated procurement by
We performed the review in response to an           performing an estimate-to-complete
allegation of inappropriate Air Force               conversion analysis and providing the
influence over the Defense Contract                 analysis to the Air Force in September 2005.
Management Agency’s (DCMA) C-130J
contract administration function.                   A June 2, 2006, DCMA performance award
                                                    justification letter incorrectly attributed the
                                                    September 2005 C-130J estimate-to-
What We Did                                         complete conversion analysis as supporting
We determined the role of the DCMA in               the C-130J termination. Appendix C shows
supporting Air Force or C-130J prime                the timeline of events related to the
contractor actions in response to a December        termination and conversion.
2004 Deputy Secretary of Defense decision
to terminate the C-130J aircraft program. In        We found no evidence to suggest that the
May 2005, the Secretary of Defense                  Air Force or the prime contractor exerted
reversed the termination decision. We also          inappropriate influence over DCMA.
determined whether the Air Force or the
C-130J prime contractor exerted                     Management Comments
inappropriate influence over the DCMA
C-130J contract administration function             No written response to this report was
from December 2004 through September                required. Therefore, we are publishing this
2005.                                               report in final form.

What We Found
DCMA played only a minor role in DoD and
Air Force actions in response to the
December 2004 C-130J termination.

During early 2005, DCMA management
attended DoD-chaired meetings held to
determine the termination cost of the C-130J
program. However, we found no evidence
that DCMA personnel were either requested
                                                    The C-130J Aircraft

                                                i
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objectives                                                           1
       The C-130J Program Background                                        1

Defense Contract Management Agency Support of the C-130J                    5

Appendices

       A. Scope and Methodology                                             9
              Prior Coverage                                                9
       B. Prior Office of Inspector General Reviews of the C-130J Program   11
       C. Timeline for the C-130J Contract Conversion and Program
          Termination Decision                                              12
Introduction
A September 8, 2008, allegation letter requested that the DoD Acting Inspector General review
whether the Air Force or the C-130J prime contractor exerted inappropriate influence pertaining
to the Defense Contract Management Agency (DCMA) contract administration function for the
C-130J aircraft program. The allegation letter claimed that DCMA assisted the Air Force and the
C-130J prime contractor in congressional lobbying efforts to reverse the December 2004 C-130J
program termination decision as expressed in Program Budget Decision 753. The allegation
letter also claimed that a June 2, 2006, DCMA employee performance award justification letter
indicated inappropriate use of Government resources at the DCMA Plant Representative’s Office
at Lockheed Martin Corporation, Marietta, Georgia, to help the Air Force save the C-130J
contract from termination.

Objectives
We determined the role of DCMA in supporting Air Force or C-130J prime contractor actions in
response to a DoD-proposed termination of the C-130J. We also determined whether the
Air Force or the C-130J prime contractor exerted inappropriate influence over the DCMA
C-130J contract administration function from December 2004 through September 2005. Our
review was limited to specific steps to answer the allegation. See Appendix A for a discussion of
the scope and methodology and prior coverage. We relied on some of the work we performed
during previous DoD Office of the Inspector General (OIG) reviews of the C-130J program. See
Appendix B for details of the prior OIG reviews.

The C-130J Program Background
Defense Contract Management Agency
DCMA’s mission is to perform contract administration functions for DoD, other authorized
Federal agencies, foreign Governments, international organizations, and others as authorized.
Performance of contract administration functions must be in accordance with the Federal
Acquisition Regulation (FAR) Part 42, “Contract Administration and Audit Services,” and the
Defense Federal Acquisition Regulation Supplement (DFARS) Part 242, “Contract
Administration.”

The C-130J Aircraft
The C-130J aircraft performs intra-theater airlift missions to bring troops and equipment into
hostile areas. The Air Mobility Command, Theater Commands, Air National Guard, Air Force
Reserve, Air Force Special Operations Command, Marine Corps, and Coast Guard use the C-130
aircraft fleet for both peace and wartime missions. The C-130J aircraft is a medium-range,
tactical aircraft and is the newest upgrade to the C-130 fleet. Specialized versions of the aircraft
include the C-130J Stretch that has an increased cargo floor length of 55 feet, the WC-130J that
performs weather reconnaissance missions, the EC-130J that performs electronic warfare
missions, the KC-130J that performs air-refueling missions, and the HC-130J that performs
search and rescue missions.1


1
    In this report, we will refer to all aircraft as the C-130J unless the discussion relates to a specific aircraft version.
                                                               1
C-130J Program Information
The Under Secretary of Defense for Acquisition, Technology, and Logistics designated the
C-130J program as an Acquisition Category IC program and assigned the Air Force acquisition
executive as the milestone decision authority.2 On September 5, 1995, the Air Force C-130J
System Program Office (SPO) contracting officer determined that the C-130J aircraft was a
commercial item that would meet the Government’s needs with minor modifications. Because of
the contracting officer’s decision to designate the aircraft as a commercial item, the Air Force did
not apply FAR Part 15, “Contracting by Negotiation,” (which allows the Government access to
contractor cost and pricing data and oversight) to the C-130J procurement. In March 2003, the
Air Force C-130J SPO awarded a multi-year procurement (MYP) contract to Lockheed Martin
for the procurement of 60 aircraft: 40 C-130J aircraft for the Air Force and 20 KC-130J aircraft
for the Marine Corps. The Air Force issued the MYP contract under FAR Part 12, “Acquisition
of Commercial Items.” The Air Force C-130J SPO stated that since the C-130J program
inception, the Air Force C-130J SPO has contracted for 169 C-130J aircraft for the Air Force,
Marine Corps, and Coast Guard at a cost of $9.7 billion. As of December 31, 2008, the
Air Force C-130J SPO had accepted 109 C-130J aircraft.

C-130J Termination
C-130J Termination Decision
On December 23, 2004, the then Deputy Secretary of Defense approved DoD Program Budget
Decision (PBD) No. 753 that included an alternative estimate to reduce the DoD program
budget. PBD 753 included language that terminated the Air Force MYP of C-130J aircraft after
completion of FY 2005 production. In addition, PBD 753 accelerated FY 2006 procurement of
the Marine Corps KC-130J aircraft. PBD 753 reduced the C-130J procurement budget for
FY 2005 through FY 2011 by $4.996 billion.

Congressional Response to Termination Decision
On January 10, 2005, 24 members of the United States Senate wrote President George W. Bush
stating that the DoD-proposed termination of the C-130J MYP contract was ill-advised and
untimely, given the operational shortfalls facing the United States military. The letter also noted
that the cost of terminating the C-130J program could be more costly to the American taxpayers
than completing the MYP as planned.

Reversal of C-130J Termination Decision
On May 10, 2005, the Secretary of Defense wrote the then Chairman for the Defense
Subcommittee, Committee on Appropriations (Senator Ted Stevens) stating that after
considering new information regarding contract termination costs, he decided it was in the best
interest of DoD to complete the C-130J MYP contract. The Secretary’s letter effectively
reversed the C-130J program position taken in PBD 753.




2
 Acquisition Category IC programs are Major Defense Acquisition Programs with expenditures for research,
development, test, and evaluation of more than $365 million or procurement of more than $2.190 billion. The
milestone decision authority is the Component head or Service acquisition executive.
                                                        2
C-130J Contract Conversion
C-130J Contract Conversion Decision
During an April 13, 2005, meeting, the then Chairman of the Senate Subcommittee on AirLand,
Committee on Armed Services (Senator John McCain), the then Acting Air Force Secretary
(Michael L. Dominquez), and the then Chief of Staff (General John P. Jumper) agreed that the
C-130J aircraft procurement should be converted from a commercial acquisition contract under
FAR Part 12 to a negotiated procurement under FAR Part 15. This agreement was later reflected
in Section 135 of Public Law 109-163 the “National Defense Authorization Act for Fiscal Year
2006” that required that any C-130J or KC-130J aircraft procured after FY 2005 be procured
through an acquisition of items negotiated under FAR Part 15.

C-130J Estimate-To-Complete Conversion Analysis
After the Secretary of Defense decided not to terminate the C-130J program and to convert the
program to a negotiated procurement, the Air Force began to gather data to reprice the MYP
contract. On August 3, 2005, as part of the C-130J MYP conversion process, the Air Force
requested that DCMA perform an estimate-to-complete (ETC) on the C-130J contract. On
September 15, 2005, DCMA provided the Air Force with a C-130J MYP conversion technical
evaluation report that described and evaluated the work that was needed to complete the
remaining tasks for engineering, management, and integrated logistics support for the C-130J
program. DCMA generated the report to supply the Government with a defendable position
from which a fair settlement could be negotiated for the C-130J MYP conversion from FAR
Part 12 to FAR Part 15. The ETC conversion report stated that a detailed DCMA analysis of the
contractor’s ETC was not possible given the volume and detail of data. The C-130J MYP
conversion technical evaluation report concluded that DCMA found no major disagreements
with the prime contractor’s overall ETC.

C-130J Contract Conversion to Non-Commercial Acquisition
On October 17, 2006, the Air Force converted the C-130J MYP contract from a FAR Part 12
contract to a FAR Part 15 contract for 39 Air Force and Marine Corps C-130J aircraft that were
to be purchased from FY 2006 through 2008. The modified negotiated price of approximately
$2.23 billion included a downward price adjustment of approximately $364 million. An
October 18, 2006, internal Air Force briefing concluded that a $167.7 million net savings was
achieved through the conversion negotiation. In addition to the cost savings for the taxpayer, the
contract conversion resulted in the Air Force receiving certified cost and pricing data from the
contractor and an agreement with the contractor that any future C-130J aircraft would also be
procured under FAR Part 15.

C-130J Contract Conversion Review
On April 6, 2007, the DoD Acting Inspector General wrote to the Special Assistant to the
Secretary of the Air Force in response to an October 18, 2006, Air Force request that the OIG
review the C-130J aircraft MYP contract conversion to ensure that it was consistent with
Section 135. The Acting Inspector General concluded that the Air Force complied with the
statutory requirement through the modification to the MYP contract and that the modification
was generally consistent with the provisions of FAR Part 15 and appeared to protect the
Government’s rights by achieving transparency in price and cost data, resulting in a lower price
for the taxpayer.


                                                3
Defense Contract Management Agency Support
of the C-130J
The DCMA played only a minor role in DoD and Air Force actions in response to the December
2004 C-130J termination. In early 2005, DCMA management attended DoD-chaired meetings
held to determine the termination cost of the C-130J program. We found no evidence that
DCMA personnel were either requested to provide or did provide any written analysis of the
termination costs. DCMA personnel played a more substantial role in the subsequent C-130J
contract conversion process by performing a C-130J ETC conversion analysis and providing the
analysis to the Air Force in September 2005. A June 2, 2006, DCMA performance award
justification letter that was provided in the allegation letter incorrectly attributed the DCMA ETC
conversion analysis as supporting the earlier decisions on C-130J termination costs. Appendix C
shows the timeline of events related to the termination and conversion. We found no evidence to
suggest that the Air Force or the C-130J prime contractor exerted inappropriate influence over
DCMA during the period of December 2004 through September 2005.


Guidance Governing DCMA Support of C-130J
DoD Directive 5105.64, “Defense Contract Management Agency,” states that DCMA will
perform contract administration functions for DoD in accordance with FAR Part 42, “Contract
Administration and Audit Services.” FAR Part 42.3, “Contract Administration Office
Functions,” notes that contract administration office functions include supporting the program
offices regarding program reviews, program status, program performance, and actual or
anticipated program problems. The Directive states that DCMA will enter into support
agreements with Military Departments as required for effectively performing DCMA functions
and responsibilities.

An undated Air Force Systems Program Office and DCMA C-130J Memorandum of Agreement
(MOA) governs DCMA oversight of the C-130J program. The purpose of the MOA was to
facilitate an effective relationship between the C-130J Program Office and DCMA to accomplish
C-130J program objectives in support of C-130J contracts.

DCMA Support of C-130J Termination Analysis
DCMA played only a minor role in DoD and Air Force actions made in response to the
December 2004 C-130J termination. DCMA management attended DoD-chaired meetings held
to determine the termination cost of the C-130J program. In January 2005, DCMA management
met with personnel from the Office of Program Analysis and Evaluation, Air Force, and
Marine Corps to discuss how the Air Force should implement PBD 753 and to determine what
costs should be included in a MYP termination cost analysis that would be presented to the
Secretary of Defense.

The Air Force and personnel from the Office of Program Analysis and Evaluation made the final
decision on what to include in the termination analysis presented to the Secretary of Defense by
the Office of Program Analysis and Evaluation personnel on April 15, 2005.

However, the Air Force did not have support for the termination cost estimate and could not
provide us documentation to support the analysis results. We found no evidence that the
                                                5
Air Force requested DCMA to perform a termination cost analysis on the C-130J contract. We
also found no evidence that DCMA performed any work on the Air Force and Office of Program
Analysis and Evaluation termination analysis, other than participating in the group discussions.
In addition, we found no evidence that DCMA assisted in congressional lobbying efforts to
reverse PBD 753. All DCMA and Air Force personnel interviewed noted that DCMA did not
issue any C-130J termination analysis work product. We also found no evidence to support that
the DCMA employee noted in the performance award justification letter was involved in the
January 2005 termination discussions or in preparing the termination cost analysis.

C-130J ETC Conversion Analysis
After the Secretary of Defense decided not to terminate the C-130J program and to convert the
program to a negotiated procurement, the Air Force began to gather data to reprice the MYP
contract. On August 3, 2005, as part of the C-130J MYP conversion process, the Air Force
requested that DCMA perform an ETC on the C-130J contract. On September 15, 2005, DCMA
provided the Air Force with a C-130J MYP conversion technical evaluation report that described
and evaluated the work that was needed to complete the remaining tasks for engineering,
management, and integrated logistics support for the C-130J program. DCMA generated the
report to supply the Government with a defendable position from which a fair settlement could
be negotiated for the C-130J MYP conversion from FAR Part 12 to FAR Part 15. The ETC
conversion report stated that a detailed DCMA analysis of the contractor’s ETC was not possible
given the volume and detail of data. The C-130J MYP conversion technical evaluation report
concluded that DCMA found no major disagreements with the prime contractor’s overall ETC.

DCMA Performance Award Justification Letter
A June 2, 2006, DCMA performance award justification letter, which was included with the
allegation letter, incorrectly attributed analysis work performed to support the C-130J ETC
conversion analysis as supporting the C-130J termination. The justification letter supported a
$1,500 award to a DCMA engineer for work performed during calendar year 2005. In the
justification letter, the employee’s supervisor asserted that the employee served as the lead for
providing support to the Air Force in its efforts to challenge PBD 753 and that the employee was
able to gather critical information from the C-130J prime contractor. The justification letter
stated that the information was used in Air Force discussions on Capitol Hill, subsequently
provided to the Secretary of Defense, and had a direct influence on the Secretary’s decision to
remove the C-130J from the PBD 753 list of programs to be terminated. The award justification
letter also discussed similar support provided by the employee for the subsequent C-130J ETC
conversion analysis, noting that information obtained by the DCMA employee from the prime
contractor was used to substantiate the contractor’s ETC for the MYP contract conversion.

The overlapping time frames of the PBD and the C-130J contract conversion decision, and the
manner in which terminology was used in the PBD 753 decision contributed to confusion
between what work the employee actually performed and what work the employee was said to
have performed in the award justification letter. Our discussions with personnel at DCMA,
Air Force headquarters, and the C-130J SPO supported statements made to us by the employee
that he did not work on a termination cost analysis. Since the employee’s work was in support of
the ETC conversion analysis, we found no evidence that DCMA resources were inappropriately
expended.



                                                6
The award justification letter noted that the employee was a major contributor to the ETC
conversion report and that the employee worked with the C-130J prime contractor to obtain data
(not contractually deliverable to the Government) to assist in preparing the ETC conversion
analysis. Air Force officials noted to us that the employee also provided direct support to the
Office of the Assistant Secretary of the Air Force, Acquisition personnel for the meeting with
Senate staffers related to the C-130J contract conversion from FAR Part 12 to FAR Part 15.

However, the employee was not involved in the January 2005 C-130J termination meetings and
did not work on the Air Force termination cost analysis, but worked only on the subsequent
August and September 2005 ETC conversion analysis. The award justification letter incorrectly
attributed the employee’s C-130J ETC conversion analysis as work performed on the C-130J
termination cost analysis. As the August and September 2005 C-130J ETC conversion analysis
work had no bearing on the May 2005 Secretary of Defense decision to reinstate the C-130J
program, the award justification was in error as it related to the employee’s role in the C-130J
termination and reinstatement.

On November 13, 2005, the current supervisor (Supervisor A) was assigned as the employee’s
DCMA supervisor of record. As such, Supervisor A’s name appeared on the employee’s June 2,
2006, award justification letter. Supervisor A requested input for the award justification from the
employee’s previous supervisor (Supervisor B) because Supervisor B had knowledge of the
employee’s work during the rating period. Supervisor A noted in a September 10, 2008,
memorandum of record that he did not write or develop any awards for any engineer in the
DCMA C-130J office but rather provided Supervisor B a blank award justification form with
Supervisor A’s name in the signature block. Supervisor B agreed that he provided input for the
employee’s award justification letter. When asked to explain the discrepancy for the employee’s
work on the C-130J termination, Supervisor B acknowledged that he was mistaken and that the
employee provided an ETC analysis report, not a termination analysis report. Neither
Supervisor A nor Supervisor B signed the employee’s award justification letter. The Deputy
Commander, DCMA Plant Representatives Office, Marietta, Georgia, stated that there was no
requirement for the award justification letter to be signed. Since the award justification was in
error, we referred the issue to the DCMA for potential administrative action.

DCMA C-130J Contract Administration
We found no evidence to suggest that the Air Force or the C-130J prime contractor exerted
inappropriate influence over the DCMA during the period of December 2004 through
September 2005. The DCMA played only a minor role in DoD and Air Force actions in
response to the December 2004 C-130J termination. During the Government evaluation of the
ETC conversion analysis for the C-130J MYP, DCMA worked closely with the C-130J prime
contractor to obtain data that the prime contractor was not contractually obligated to provide.




                                                7
Appendix A. Scope and Methodology
We conducted this review from November 2008 through March 2009. We did not conduct the
review in accordance with generally accepted government auditing standards as the review was
limited to specific steps to answer the allegation letter and focused only on DCMA C-130J
program support actions between December 2004 and September 2005. However, we believe
that we planned and performed the review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our conclusions based on our review objectives. We also believe that the
evidence obtained provides a reasonable basis for our conclusions based on our review
objectives. We relied on some of the work we performed during previous OIG reviews of the
C-130J program. In addition, we reviewed available Air Force and DCMA documentation
relating to C-130J oversight actions performed between December 2004 and September 2005.
See Appendix B for details of the prior OIG reviews. For this review, we visited or contacted the
Headquarters, Air Force, and the C-130J SPO. We also visited the DCMA headquarters and the
DCMA Plant Representatives Office in Marietta, Georgia, to interview DCMA personnel noted
in the allegation.

Use of Computer-Processed Data
We did not use computer-processed data to perform this review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department of Defense
Inspector General (DoD IG), and the Air Force Audit Agency issued 5 products discussing the
C-130J contract. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-379, “Termination Costs Are Generally Not a Compelling Reason to
Continue Programs or Contracts That Otherwise Warrant Ending,” March 14, 2008

DoD IG
DoD IG Acting Inspector General Letter Regarding Review of the C-130J Aircraft Multiyear
Contract Conversion, April 6, 2007

DoD IG Report No. D-2006-093, “Contracting and Funding for the C-130J Aircraft Program,”
June 21, 2006

DoD IG Report No. D-2004-102, “Contracting for and Performance of the C-130J Aircraft,”
July 23, 2004

Air Force
Air Force Report No. F2005-0008-FC3000, “Acquisition Management of the C-130J Program,”
September 28, 2005




                                               9
Appendix B. Prior Office of Inspector General
Reviews of the C-130J Program
We issued DoD IG Report No. D-2004-102, “Contracting for and Performance of the C-130J
Aircraft,” July 23, 2004, in response to allegations to the Defense Hotline concerning the C-130J
aircraft. We substantiated an allegation that the C-130J aircraft did not meet contract
specifications and therefore could not perform its operational mission. We recommended that
the Air Force stop contracting for additional C-130J block upgrades until a contract-compliant
aircraft was designed, developed, and delivered. We also recommended that the Air Force
increase contract withhold amounts for acceptance of noncompliant C-130J aircraft, develop a
schedule for completing outstanding retrofits for accepted and fielded C-130J aircraft, and use
FAR Part 15 as the basis for future C-130J MYP contract modifications.

We issued DoD IG Report No. D-2006-093, “Contracting and Funding for the C-130J Aircraft
Program,” June 21, 2006, in response to four allegations made to the Defense Hotline. We
substantiated two of the four allegations, including an allegation of a potential Antideficiency
Act violation. We concluded the Secretary of Defense did not have sufficient termination cost
information to determine the cost-effectiveness of continuing or terminating the C-130J MYP
contract. We also concluded that the FY 2006 President’s Budget did not include sufficient
funds to terminate the Air Force C-130J aircraft procurement and accelerate the Marine Corps
KC-130J aircraft procurement if the unsupported cost estimate was valid. We also substantiated
a second allegation that the C-130J SPO contracting officer did not appropriately evaluate the
contractor’s performance against contract default provisions.

On April 6, 2007, the DoD OIG Acting Inspector General wrote a letter regarding the review of
the C-130J aircraft MYP contract conversion. The letter was to the Special Assistant to the
Secretary of the Air Force responding to an Air Force request that the OIG review the C-130J
aircraft MYP contract conversion to ensure that it was consistent with Section 135 of Public
Law 109-163 the “National Defense Authorization Act for Fiscal Year 2006.” Public Law 109-
163 requires that any C-130J/KC-130J aircraft procured after FY 2005 be procured through an
acquisition of items negotiated under FAR Part 15, “Contracting by Negotiation,” rather than
through a commercial items contract based on FAR part 12, “Acquisition of Commercial Items.”
The Acting Inspector General concluded that the Air Force complied with the statutory
requirement through the modification to the MYP contract and that the modification was
generally consistent with the provisions of FAR Part 15 and appeared to protect the
Government’s rights by achieving transparency in price and cost data, resulting in a lower price
for the taxpayer. The Air Force and DCMA provided the DCMA ETC conversion analysis
report as an action performed in support of the C-130J contract conversion.




                                               11
Appendix C. Timeline for the C-130J Contract
Conversion and Program Termination Decision
The following chart is a timeline of the C-130J program as it relates to the MYP contract
conversion and the PBD 753 decision to terminate the program. This timeline covers the time
from July 2004 to April 2007 and actions taken regarding the C-130J program and the MYP
contract.




                       C-130J aircraft on a dirt runway




                                             12
                                        Oct 04   Jan 05         Apr 05          Jul 05         Oct 05           Jan 06            Apr 06        Jul 06         Oct 06          Jan 07          Apr 07
                 Jul 04                                                                                                                                                                           May 07
                                                           April 13, 2005
                                                          Senator McCain
           July 23, 2004                                  Requests the AF
  DoD IG Report No. D-2004-102                             to convert the
    substantiates the allegation                                                                               August 3, 2005                            June 2, 2006
                                                          MYP contract to
that the C-130J aircraft did not meet                      a FAR Part 15                                  AF SPO requests DCMA                      DCMA awards engineer
contract specifications and couldn't                          contract                                   to perform ETC conversion                      for work on the
   perform its operational mission                                                                    analysis to support the conversion            C-130J ETC conversion
                                                                                                                                                        analysis report


                                                                                                                                                                                  April 6, 2007
                                                                                                                                                                       DoD OIG releases memo report to
        December 23, 2004                                                                                                                                         SAF on C-130J conversion from a FAR Part 12
     SECDEF approves PBD 753                                                                                                                                            contract to FAR Part 15 contract
       proposing termination                                                                                             September 15, 2005
          of C-130J MYP                                                                                              DCMA team completes the ETC
                                                                                                                       conversion analysis report
                                                                                         May 10, 2005
                                                                                      SECDEF decides not
                                                                                        to terminate the
                 January 10, 2005                                                     C-130J MYP contract
           24 members of Congress send                                                                                                     Acronyms:
              a letter to the President
            advising him not to terminate                                                                                                  AF            Air Force
                   the C-130J MYP                                                                                                          DCMA          Defense Contract Management Agency
                                                                 January 11, 2005
                                                               DOD and AF officials                                                        ETC           Estimate-to-Complete
                                                                  discuss PBD 753                                                          IG            Inspector General
                                                          C-130J MYP contract termination                                                  FAR           Federal Acquisition Regulation
                                                               implementation plans                                                        MYP           Multi-Year Procurement
                                                                                                                                           OIG           Office of Inspector General
                                                                                                                                           PBD           Program Budget Decision
                                                                                                                                           SAF           Secretary of the Air Force
                                                                                                                                           SECDEF        Secretary of Defense
                                                                                                                                           SPO           Systems Program Office


                                                                     13
